 


               STATEMENT OF THE HONORABLE ERIC M. THORSON

                                INSPECTOR GENERAL

                         DEPARTMENT OF THE TREASURY

           BEFORE THE HOUSE COMMITTEE ON FINANCIAL SERVICES

    SUBCOMMITTEE ON DOMESTIC MONETARY POLICY AND TECHNOLOGY

                                   JUNE 23, 2011

                                       2:00 PM



Chairman Paul, Ranking Member Clay, and Members of the Subcommittee, thank
you for the opportunity to appear before you this afternoon for the hearing entitled
“Investigating the Gold: H.R. 1495, the Gold Reserve Transparency Act of 2011
and the Oversight of United States Gold Holdings.”

My testimony will cover the audits that my office has and is conducting on the
United States Mint’s Schedule of Custodial Deep Storage Gold Reserves.

Before I discuss the details of the audits that are the topic of this hearing, I would
like to make one point very clear – 100 percent of the U.S. Government’s deep
storage gold reserves in the custody of the Mint has been inventoried and audited.
Furthermore, these audits have not found any noteworthy exceptions. I also want
to make it clear that the physical security over the gold reserves is absolute. I can
say that without hesitation because I have personally observed the gold myself.
Accordingly, H.R. 1495, which calls for a full assay, inventory, and audit of gold
reserves of the United States together with an analysis of the sufficiency of the
measures taken for the security of such reserves, is redundant of audit work
already done.

My office has been extensively involved in the audit of the Department’s
consolidated financial statements and related entities since the enactment of the
Chief Financial Officer’s Act of 1990. Since 1993, our financial statement audit
work has included, and continues to include, independent annual audits of the U.S.
Government’s deep storage gold reserves held by the Mint. In fact, our fiscal year
2011 audit of those deep storage gold reserves is currently underway. As
background, I will briefly describe what the Mint’s custodial deep storage gold
reserves include, provide a short history of the audits conducted over the gold



OIG-CA-11-007                                                            Page 1 of 12
 


reserves from 1974 through 1986, and the annual audits performed by my office
since 1993.

The Mint’s Custodial Deep Storage Gold Reserves

The Mint maintains its custodial deep storage gold reserves at the United States
Bullion Depository, Fort Knox, KY; the United States Mint, West Point, NY; and the
United States Mint, Denver, CO. The Department’s deep storage gold reserves are
stored at these three locations, in 42 compartments. In all, these compartments
hold 699,515 gold bars with fineness1, or purity, ranging from 0.4701 to 0.9999
with an average fineness of 0.9006. Fort Knox houses 60 percent of the fine troy
ounces of the deep storage gold reserves, Denver 18 percent, and West Point 22
percent. As of September 30, 2010, the audited quantity of custodial deep storage
gold reserves held by the Mint was 245,262,897 fine troy ounces, over 9,300
tons, with a market value of $320.6 billion.2 Each gold bar weighs about 27
pounds and has an average value of about $500 thousand.

All three of the deep gold storage facilities are highly secured. While it would not
be appropriate for me to discuss the details of the security arrangements in place at
these facilities, I can tell you that they are multi-layered and include substantial
physical barriers, armed guards, cameras, and metal detectors.

Audits of the Mint’s Custodial Deep Storage Gold Reserves Over the Years

In 1974, in response to public and Congressional inquiries, the General Accounting
Office (GAO), known as the Government Accountability Office since July 2004, in
cooperation with the Department of the Treasury, conducted an audit of about 21
percent of the gold bars stored at the United States Bullion Depository, Fort Knox,
KY, and concluded that the gold stored at that facility agreed with the records of
the depository. Auditors from the United States Mint, the Bureau of Government
Financial Operations (BGFO),3 the U.S. Customs Service,4 and the Department of
the Treasury’s Office of the Secretary and GAO were part of a special audit
committee established by the Director of the Mint to maintain physical control over
the gold during the conduct of the inventory. In the report, Accountability and

                                                            
1
  The fineness of a precious metal refers to the ratio of the primary metal to the total weight.
2
  Market value was based on the London Gold Fixing price for gold as of September 30, 2010. On
that date, gold was priced at $1,307.00 per fine troy ounce.
3
  BGFO was established in 1974 as a bureau of the Treasury. In October 1984, BGFO was renamed
the Financial Management Service.
4
  The U.S. Customs Service was a bureau of the Treasury until March 2003 when it was transferred
to the Department of Homeland Security.


OIG-CA-11-007                                                                    Page 2 of 12
 


Physical Controls of the Gold Bullion Reserves, FOD-75-10, GAO also
recommended that the Secretary of the Treasury request the Director of the Mint
to include, as part of each depository’s annual settlement of accounts, a cyclical
inventory of the Mint’s custodial gold holdings.

In should be noted that the audit by GAO followed a Congressional visit to the Fort
Knox facility. In this regard, the House Congressional Report for September 24,
1974, included the following statement by the Honorable John H. Rousselot:

              “Mr. Speaker, the Congress can now be assured that there is gold
              bullion at the Fort Knox Depository. Several of us went there
              yesterday to try to make sure that many of these rumors and
              counterrumors were either correct or not correct. Members of the
              Committee on Banking and Currency and Senator Huddleston of
              Kentucky actually entered the Fort Knox Depository to check the
              validity of claims that U.S. gold bullion had been depleted. We can be
              assured that our civil servants are watching the gold at Fort Knox. It is
              there.”

On June 3, 1975, the Secretary of the Treasury issued Treasury Department Order
No. 234-1 (TDO 234-1), Audit of Gold Stock, authorizing and directing the Fiscal
Assistant Secretary, with the cooperation and assistance of the Director of the
Mint, to conduct a continuing audit of U.S. Government-owned gold for which the
Department is accountable.5 Pursuant to TDO 234-1, the Committee for Continuing
Audit of the U.S. Government-owned Gold performed annual audits of Treasury’s
deep storage gold reserves from 1975 to 1986, placing all inventoried gold that it
observed and tested under Official Joint Seal.6 The Committee was made up of
Internal Audit staff from the BGFO and the Mint, and the General Auditor staff from
the Federal Reserve Bank of New York. The annual audits by the Committee for
Continuing Audit of the U.S. Government-owned Gold ended in 1986, after 97
                                                            
5
  The Mint is directly responsible for safeguarding all of Treasury’s deep storage gold reserves and
working stock. Overall, the deep storage gold reserves account for about 94 percent and working
stock about 1 percent of Treasury’s gold holdings; the other 5 percent is held by the Federal
Reserve Bank of New York. Treasury reports the value of its deep storage gold reserves held by the
Mint and the Federal Reserve Bank of New York in its consolidated financial statements.
6
  An Official Joint Seal is a pre-numbered document that includes wax seals. It is attached to an
inventoried compartment door with tamperproof cloth tape. The pre-numbered document includes all
relevant information of the compartment inventoried and audited, e.g., the number of gold bars,
gross weight, and fine troy ounces). The document is signed by those present at the inventory of
the compartment (a representative from the storage facility, a representative from the Mint
headquarters, and an OIG/independent observer).


OIG-CA-11-007                                                                       Page 3 of 12
 


percent of the U.S. Government-owned gold held by the Mint had been audited and
placed under Official Joint Seal. It should be noted that during the entire period of
these audits, and up to today, no significant discrepancies have ever been found.

From 1986 to 1992, the Mint continued to perform an annual inventory and
verification of the gold reserves in accordance with its own policies over those
compartments that had not been placed under Official Joint Seal by the Committee
for Continuing Audit of the U.S. Government-owned Gold. According to Mint
officials, this was done to comply with the 1975 GAO recommendation discussed
earlier.

My office began conducting annual audits of the Mint’s Schedule of Custodial Deep
Storage Gold Reserves in fiscal year 1993. Our audits are made pursuant to
31 U.S.C. § 5136, United States Mint Public Enterprise Fund, and the Government
Management Reform Act (GMRA). In this regard, we are required to perform an
annual audit of the Mint Public Enterprise Fund’s financial statements, and those
statements include the balances of custodial deep storage gold reserves held by the
Mint. Under GMRA, my office is also responsible for the annual audit of the
Department of the Treasury’s consolidated financial statements. Those financial
statements incorporate the balances of the custodial deep storage gold reserves. It
should be noted that the Mint’s financial statements and the Department’s
consolidated financial statements are audited by a contractor under our supervision
-- the independent public accounting firm, KPMG LLP. KPMG has performed the
audit of the Mint’s financial statements since fiscal year 2005 and the
Department’s consolidated financial statements since fiscal year 2004. Starting
with the fiscal year 2005 audit, KPMG has taken responsibility for our work on the
custodial deep storage gold reserves when rendering its opinions on the Mint’s and
Treasury’s financial statements. In order for KPMG to do that, they must satisfy
themselves as to the independence, reputation, and qualifications of my audit staff.
In addition, they must also satisfy themselves with the adequacy of the audit
procedures performed. This has included, among other things, accompanying my
auditors on a number of observations of the deep gold storage facilities. By doing
this KPMG can express its opinion on the Mint’s and Treasury’s financial
statements without making reference to us in their report. That also means that
KPMG concurs with the amount and value of the gold as it is reported. The audit
work performed by both my office and KPMG is done in accordance with
government auditing standards established by GAO.




OIG-CA-11-007                                                           Page 4 of 12
 


For each of the fiscal years under audit, we have rendered unqualified or “clean”
opinions on the Mint’s Schedule of Custodial Deep Storage Gold Reserves. In
addition, for each such fiscal year under audit, we have not identified any material
weaknesses in internal control over financial reporting related to these schedules,
nor have we reported any instances of noncompliance with laws and regulations. 

When we assumed responsibility for the audit, reliance was placed on verification
procedures performed by GAO and the Committee for Continuing Audit of the U.S.
Government-owned Gold. Additionally, we relied on the intact Official Joint Seals
that the Committee placed on the inventoried compartments that it observed and
tested. If an Official Joint Seal had been tampered with, it would have been
immediately evident as the wax on the seal would have been broken and the cloth
tape used to attach it would have been detached. Since we assumed responsibility
for the audit, my office has continued to directly observe the inventory and test the
gold.

Furthermore, my auditors sign the Official Joint Seals placed on those
compartments inventoried and tested in their presence. At the end of fiscal year
2008, all 42 compartments had been audited by either GAO, the Committee for
Continuing Audit of the U.S. Government-owned Gold, or Treasury OIG, and placed
under Official Joint Seals. There has not been any movement of the inventoried
gold since that time. Furthermore, for all of the audit periods where compartment
inventories were observed by my auditors, as part of our work, in addition to
observing the Mint’s physical inventory of the gold, we selected and tested a
statistically-valid random sample of gold bars using a 95 percent confidence level
and found, without fail, that any differences between the fineness reported by the
Mint in its inventory records and the fineness projected based on our independently
obtained assay reports to be immaterial and negligible. For example, during our
fiscal year 2008 audit, we sampled gold statistically representing inventory valued
at $75,036,352.12. Based on the independent assayer’s report on those samples,
we projected the dollar value of the difference between the fine troy ounces
determined by the independent assay report and the fine troy ounces recorded in
the Mint’s inventory records to be $3,819.84 or 0.005 percent (five thousandths
of one percent) of the gold inventoried.




OIG-CA-11-007                                                           Page 5 of 12
 


The annual audit work performed by my office to verify the existence, quality, and
valuation of Treasury’s deep storage gold reserves7 has included two parts:

           Direct Physical Observation of the Gold Reserves in the Deep Storage in
           Compartments Inventoried - This included:

              •       Reviewing and evaluating internal control, to include the physical controls
                      over the deep storage gold
              •       Verifying the existence of the gold bars in each compartment by
                      • visually inspecting the gold bars
                      • comparing the records for each compartment inventoried to the
                         identifying information stamped into the gold bars
              •       Statistically selecting and testing a sample of the gold bars from the
                      compartments inventoried for fineness
                         • re-weighing the statistically selected bars
                         • re-assaying the statistically selected bars (the selected bars are
                             drilled, gold fragments are removed from the drilled hole, and those
                             gold fragments are sent by us to an independent laboratory for
                             assaying – the independent laboratory directly provides us with its
                             reports)
              •       Comparing the fineness recorded in the inventory records to the fineness
                      reported by the independent assayer for the sample of gold bars selected
                      from the compartments inventoried (any differences are projected to the
                      universe of the gold bars inventoried)
              •       Participating in the placement of an Official Joint Seal on each
                      compartment inventoried by the Mint and tested by my auditors
              •       Verifying the mathematical accuracy of the inventory records

           Visual Inspection of Official Joint Seals on Previously Inventoried
           Compartments - This includes:

              •       Reviewing and evaluating internal control, to include the physical controls
                      over the deep storage gold
              •       Inspecting the Official Joint Seals used to control compartments
                      containing previously inventoried gold to determine whether the seals
                      have been altered or compromised in any way
              •       Preparing an Official Joint Seal Inspection Report that includes identifying
                      the condition of the Official Joint Seal, determining if the signatures on
                      the Seal agree with the signatures on the copy of the original Official

                                                            
7
 For the gold reserves held by the Federal Reserve Bank of New York (which are not part of the
deep storage gold reserves), my office obtains relevant evidence supporting the existence and
valuation of the gold through a signed third party confirmation (confirmations are a widely accepted
audit procedure for purposes of placing reliance on the item being confirmed).


OIG-CA-11-007                                                                        Page 6 of 12
 


                      Joint Seal, and whether the Seal and lock had any evidence of tampering
                      and whether the compartment door was locked

As discussed earlier, by the end of fiscal year 2008, all of the deep storage gold
reserves in the Mint’s custody had been 100 percent inventoried and audited.
During our fiscal year 2010 and 2009 audits of the deep storage gold, our audit
procedures consisted primarily of inspecting the Official Joint Seals on the
previously inventoried compartments to determine whether they had been altered
or compromised in any way. We found no exceptions.

More recently, the Mint decided to replace all of the previously-placed Official Joint
Seals with new seals. The new seals are more durable, having a double security
barrier seal that can only be removed by two cuts with a strong cable cutter.

The Mint replaced all of the previously-placed Official Joint Seals with new ones
during fiscal year 2010.8 The seal replacement process consisted of two steps:
(1) inspection of all previously-placed Official Joint Seals on all the compartments
containing deep storage gold to determine whether they had been altered or
compromised in any way, and (2) placement of a new Official Joint Seal. The seal
inspection and replacement process was carried out for all 42 deep storage gold
compartments, in the presence of a Treasury OIG auditor, by a Mint headquarter
staff person, representing the Mint Director, and a Mint storage facility staff
person, representing the facility’s Plant Manager. For each Official Joint Seal
removed, the Mint headquarters representative, the Mint storage facility
representative, and the observing Treasury OIG auditor signed an inspection report;
the same parties also signed the new Official Joint Seal that replaced the one
removed.

In September 2010, I took part in that process at Fort Knox. At that time, I
personally saw the deep storage gold reserves located there. During my visit, I
witnessed, along with officials from the Mint and one of my auditors, the
replacement of all previously-placed Official Joint Seals with new Official Joint
Seals. I would also like to note that shortly after my visit to the Mint’s Fort Knox
facility I sent a letter to you, Doctor Paul, regarding my observations. A copy of
that letter is provided as Exhibit 3.

In closing, based on the work performed by my office and my own personal
observations, I can assure the Subcommitee, and anyone else for that matter, that
both the quantities and value the U.S. Government’s deep storage gold reserves
                                                            
8
    Pictures of the old and new Official Joint Seals are provided as Exhibits 1 and 2, respectively.


OIG-CA-11-007                                                                            Page 7 of 12
 


held and reported by the Mint are reliable and sufficiently audited. Therefore, I
believe that the inventory and audit requirements proposed in The Gold Reserve
Transparency Act of 2011, H.R. 1495, to be redundant of the work that my office
and the Mint have and currently perform.

That concludes my prepared statement. I will be happy to answer any questions
that you may have. Thank you.




OIG-CA-11-007                                                        Page 8 of 12
                                              Exhibit 1

                Old Official Joint Seal




OIG-CA-11-007                             Page 9 of 12
                                               Exhibit 1

                Old Official Joint Seal




OIG-CA-11-007                             Page 10 of 12
                                                Exhibit 2

                New Official Joint Seal




OIG-CA-11-007                             Page 11 of 12
                                                                       Exhibit 3

          Inspector General Thorson Letter to the Honorable Ron Paul


                                        




                                                                             

 



OIG-CA-11-007                                                    Page 12 of 12
